OIG Audit Report GR-30-98-014
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
American University
Drug Court Clearinghouse and Technical Assistance Program
Cooperative Agreement No. 95-DC-MX-K002
 
GR-30-98-0014
September 30, 1998
 
 
Executive Summary
 
The Office of the Inspector General, Audit Division, has completed an
audit of cooperative agreement number 95-DC-MX-K002 (hereinafter "grant")
awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), to The
American University (American University). American University received an award of
$1,354,514 to provide training, clearinghouse and information services, and planning,
implementation and enhancement technical assistance to drug court grantees.
Our audit concentrated on, but was not limited to, the award period of October 1, 1995
through April 30, 1998. We reviewed transactions to determine whether costs were
allowable, reasonable, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the grant. We also reviewed requests for reimbursement, budget
deviations, and the accuracy and timeliness of financial and progress reports.
In brief, our audit determined that American University submitted timely financial
status and progress reports that accurately reflected grant activity, and implemented the
activities planned to accomplish the objective of the grant; but: 


Charged unallocable costs totaling $11,902 to the grant, which consisted of unapproved
    and unsupported travel charges, unallocable equipment charges, and unauthorized equipment
    purchases.

These items are discussed in detail in the FINDING AND RECOMMENDATIONS section of the
report. Our SCOPE AND METHODOLOGY appear in Appendix II.
#####